           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  MINOR CHILDREN RECEIVING BENEFITS
   WITHOUT A REPRESENTATIVE PAYEE


       May 2011    A-13-10-10104




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      May 4, 2011                                                                  Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Minor Children Receiving Benefits Without a Representative Payee (A-13-10-10104)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration (SSA)
           appointed representative payees for minor children in accordance with its policies.

           BACKGROUND
           Some individuals are not able to manage or direct the management of their finances
           because of their youth or mental and/or physical impairment. For such beneficiaries,
           Congress provided for payment through a representative payee who receives and
           manages benefit payments for the beneficiary. 1 A representative payee may be an
           individual or an organization. SSA selects representative payees for Old-Age, Survivors
           and Disability Insurance (OASDI)2 and/or Supplemental Security Income (SSI)3
           beneficiaries 4 when representative payments would serve the individual’s interests. 5

           It is important that minor children have representative payees to manage their benefits
           to ensure the payments are for their current and foreseeable needs. Therefore, SSA
           generally presumes minor children (that is, under age 18) to be incapable of managing


           1
               The Social Security Act §§ 205(j) and 1631(a)(2)(A)(ii), 42 U.S.C. §§ 405(j) and 1383(a)(2)(A)(ii).
           2
            The OASDI program provides benefits to qualified retirement eligible and disabled workers and their
           dependents as well as to survivors of insured workers (Social Security Act § 202 et seq., 42 U.S.C.
           § 402 et seq.).
           3
            The SSI program provides payments to individuals who have limited income and resources; and who
           are age 65 or older, blind, or disabled (Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.).
           4
             We use the term “beneficiary” generically in this report to refer to both OASDI beneficiaries and SSI
           recipients.
           5
            The Social Security Act §§ 205(j)(1) and 1631(a)(2)(A)(ii)(I), 42 U.S.C. §§ 405(j)(1) and
           1383(a)(2)(A)(ii)(I).
Page 2 - The Commissioner


their own benefit payments.6 SSA policy states children under age 15 must have a
representative payee. 7 As a result, SSA usually appoints a payee to manage the
benefits of children. However, according to Agency policy, 8 SSA can pay a child age
15 through 17 directly if one of the following conditions exists.

•         The child is entitled to disability benefits based on his/her own earnings.
•         The child is on active duty in the armed forces.
•         The child is living alone and self-supporting.
•         The child is a parent and filed for his/her own or his/her child’s benefits, and has
          experience handling finances.
•         The child is within 7 months of attaining age 18.
•         The child has demonstrated the ability to handle finances, and no qualified payee is
          available.

In addition, SSA can pay beneficiaries who are ages 15 through 17 directly on an
interim basis even if they do not meet the above criteria, pending efforts to identify a
new representative payee. 9 If the Agency determines a child is capable of receiving
direct payment of his/her benefits, SSA must document the results of its capability
determination on the child’s record in the Representative Payee System (RPS) or on a
Report of Contact if RPS is not available. 10

As of April 2010, the Agency had determined there were approximately 5.4 million
children under age 18 where representative payees managed the OASDI or SSI benefit
payments. During the same period, we identified 1,351 beneficiaries under age 15 on
SSA’s records who were being paid directly. We provided the list of the 1,351 children
under age 15 to the Agency for review and corrective action. We also identified
567 beneficiaries ages 15 through 17 who were being paid directly on 1 segment 11 of
the Master Beneficiary (MBR) and Supplemental Security Records (SSR). Therefore,
we estimate there are about 11,340 beneficiaries, ages 15 through 17, who are being
paid directly in all 20 segments of the MBR and SSR. Of the 567, we selected
81 children and determined whether SSA had complied with its policies and procedures
for issuing payments directly to minor children. Our review included payments issued


6
    SSA, POMS, GN 00502.070 A.
7
    Id.
8
    SSA, POMS, GN 00502.070.
9
    SSA, POMS GN 00504.105 A.2.b.
10
     SSA, POMS, GN 00502.070 C.
11
 The MBR and SSR are divided into 20 segments with each segment representing 5 percent of all
OASDI and SSI benefit records.
Page 3 - The Commissioner


under both the OASDI and SSI programs. See Appendices B and C for our scope and
methodology and sampling methodology, respectively.

RESULTS OF REVIEW
SSA did not always appoint representative payees for minor children in accordance with
its policies. We found SSA did not appoint representative payees, as required, 12 for
1,351 minor children under the age of 15, who we estimate received about $32.9 million
in benefit payments.

In addition, of the 81 children ages 15 through 17 reviewed, we found SSA did not
comply with its policies and procedures for 26 children who managed their own
payments. The Agency confirmed it erroneously placed eight OASDI and eight SSI
beneficiaries into direct pay who did not meet the capability determination criteria.
Based on our sample, we estimate the Agency erroneously placed about 1,720 OASDI
and 160 SSI child beneficiaries in direct pay. We estimate these children received
about $31.8 million and $1.5 million in benefit payments, respectively.

The Agency reported that 10 of the 26 child beneficiaries, ages 15 through 17, were
capable of managing their own benefit payments. However, SSA had not documented
its capability determinations on the children’s records as required by SSA policy.

In summary, we estimate benefits totaling about $32.9 million were improperly paid to
1,351 children under age 15. In addition, we estimate benefits totaling approximately
$33.3 million for about 1,880 children ages 15 through 17 were also improperly paid. In
total, we estimate approximately $66.2 million in benefits was improperly paid. Further,
without the proper appointment of representative payees, there is no apparent oversight
to ensure the funds were used for the children’s best interests.

REPRESENTATIVE PAYEES FOR MINOR CHILDREN UNDER AGE 15

SSA confirmed it did not appoint representative payees for the 1,351 minor children
under age 15 we identified. In April 2010, we requested the Agency assign
representative payees for the 1,351 children. As of December 2010, the Agency
indicated it had appointed representative payees for 1,333 (99 percent) of the
1,351 children.

For 16 children, SSA staff suspended the benefit payments pending appointment of
payees to manage the children’s finances. In many of these cases, the Agency
explained it had been unsuccessful in its attempts to locate the children or their parents.
In one example, the Agency stated it had exhausted all attempts to contact the parent of
a child (including a home visit in September 2010). As a result, the payments will
remain in a suspended status until the child is located and SSA appoints a payee. In

12
  SSA, POMS, GN 00502.070 A. This SSA policy states, in part, that children under age 15 must have a
payee. SSA, POMS GN 00504.105 A.2.b. requires suspension of benefits pending payee selection for
beneficiaries under age 15.
Page 4 - The Commissioner


December 2010, based on the information provided by SSA, we referred 2 of the
16 children to our Office of Investigations for additional review. We believe the Agency
should determine whether referrals to the Office of Investigations are appropriate for
any of the remaining 14 cases. Lastly, two children were no longer eligible for benefits.

Because the Agency had not appointed payees for 1,351 children under age 15, we
estimate SSA paid about $32.9 million in benefits without proper oversight as to whether
the funds were used for the best interest of the children. This occurred because the
Agency was not monitoring how the benefits were spent. The Agency used information
in RPS about appointed payees to send its annual Representative Payee Report, Form
SSA-623. SSA uses this Report to monitor how payees are spending and/or saving
benefits on behalf of beneficiaries and identify situations where the payees may no
longer be suitable.

To determine why minor children under age 15 were receiving benefits without
representative payees, we requested the Agency analyze the records of the
1,351 children we identified, and explain why the children did not have representative
payees. Figure 1 identifies the various explanations SSA provided.




                      Figure 1: Reasons Why Children Under
                           Age 15 Did Not Have Payees

                                                                Undocumented
                   Systems                                        Applicants
                  Problems                                           55
                     135
                                         Employee
                                          Errors
                   Unknown                                     Applications
                                           1,102
                     114                                       Not Taken, or
                                                               Processed to
                                                                Completion
                                                                   1,047




SSA Employee Processing Errors

Of the 1,351 children, the Agency indicated 1,102 (82 percent) were not appointed
representative payees because of SSA employee processing errors.
Page 5 - The Commissioner


Applications Not           Specifically, in 1,047 cases, the Agency explained that SSA
Taken or Not               employees either did not take or did not process to completion
Processed to               representative payee applications. For example, Agency staff
Completion                 explained in one case a 10-year-old child had been receiving
                           paper checks in her own name because the SSA technician who
took the initial benefit claim application failed to complete a representative payee
application in RPS.

In another example, an 11-year-old child became entitled to OASDI benefits in 2003.
The Agency explained SSA staff entered a payee application from the child’s mother in
RPS but did not process it to completion. In 2005, a database cleanup process
removed the application. 13 SSA did not appoint a payee for the child until June 2010.
Staff explained that a cleanup process eventually removes payee applications that
remain pending—not processed to completion—in RPS (usually over 365 days). A total
of 314 children did not have representative payees appointed because previous payee
applications were removed during database cleanups.

During the representative payee application process, an SSA employee interviews the
potential payee(s) and records the applicant’s information in RPS. After the employee
evaluates suitability and determines who would be most qualified to serve as payee, the
employee must return to RPS and select the representative payee. If an employee fails
to select a payee, the application(s) will remain pending in RPS. The Agency keeps
track of pending RPS applications on its Workload Management System and
Representative Payee Applications Pending Website. Agency guidance14 encourages
employees to review the pending payee list at least once each month to identify cases
that need to be cleared or completed. However, we could not locate policy requiring the
clearance of these lists. In addition, staff indicated they did not consider this workload a
top priority in some field offices since they do not receive workload credit 15 for clearing
the pending RPS applications.




13
  Periodically, SSA’s Office of Systems completes cleanups of RPS. According to staff, the purpose of
the cleanups is to move applications that have become “stuck” in a pending status for over 365 days.
14
     A Guide to Cleaning Up RPS Lists, developed by the San Francisco Region.
15
   The Agency monitors and assigns District Office Workload Report credit for the completion of certain
field office workloads to measure the amount of employee work power expended on specific tasks. Not
every workload activity receives credit. SSA uses this information to estimate future workloads and
budget/staffing requirements.
Page 6 - The Commissioner


     Undocumented         For 55 children, the employee processing errors involved
                          situations where representative payee applicants, the children’s
     Applicants
                          parents, were undocumented individuals. The parents did not
                          have valid Social Security numbers (SSN). According to SSA
policy, 16 Agency staff can appoint undocumented parents as representative payees.
However, RPS does not accept representative payee applications without SSNs
because the SSN serves as the unique identifier in RPS. Staff explained it is a manual
process to select an undocumented parent as a representative payee. RPS does not
process or record such selections. Therefore, SSA is unable to monitor how
undocumented parents spend children’s benefits, because the Agency does not send
these payees Forms SSA-623.

When an undocumented parent wants to serve as a representative payee, the individual
completes a Request to Be Selected As Payee, Form SSA-11. Once field office staff
completes the paper form, SSA’s processing centers handle the requests concerning
OASDI beneficiaries; and the field office handles requests for SSI recipients. Once SSA
staff selects applicants, the processing center staff manually inputs data into the Manual
Adjustment, Credit, and Award Data Entry System to have beneficiaries’ payments
issued to the payees. Field office staff enters data into the Supplemental Security
Income Data Input screens to have SSI payments issued to the selected payees. After
payment, the processing center/field office faxes the paper SSA-11 into the Non-
Disability Repository for Evidentiary Documents. SSA does not retain the paper
documents.

Based on discussions with SSA staff, we believe cases involving undocumented payee
applicants are causing confusion among Agency employees. As a result,
(1) incomplete representative payee applications occur, and (2) SSA paid children
directly. For example, the Agency confirmed it paid a 12-year-old child directly because
the child’s mother did not have an SSN, and it did not process her representative payee
application to completion. Based on our inquiry, the Agency appointed the child’s
stepfather as the child’s payee in September 2010.

Systems Problems

The Agency indicated 135 (10 percent) of the children were receiving benefits without
representative payees because of systems problems. In one response, the Agency
explained a payee application became stuck in the system, and SSA staff needed to
retrigger the payee selection. SSA appointed a representative payee for the child in this
case in June 2010. In another example, the Agency stated a child was entitled on two
different records, and there was a systems processing issue on the second record.
SSA appointed a payee for this child in June 2010.




16
     SSA, POMS, GN 00502.117 A.1.a.
Page 7 - The Commissioner


Unknown

Finally, the Agency was unable to explain why 114 (8 percent) of the 1,351 children did
not have payees. In one case, a 6-year-old OASDI beneficiary had been receiving
direct payment. The Agency responded it was “unable to determine how this occurred.”
SSA appointed a payee for the child in June 2010.

CAPABILITY DETERMINATIONS FOR CHILDREN AGES 15 THROUGH 17 IN
DIRECT PAY

SSA is required to make capability determinations regarding whether children ages
15 through 17 are capable of managing their own benefit payments. SSA pays benefits
directly to these children only if certain conditions exist. 17 Agency policy 18 directs staff
to record capability determinations for children on the Beneficiary/Recipient Special Text
screen in RPS or on a Report of Contact if RPS is not available. Based on our review of
SSA’s records for a sample of 81 children ages 15 through 17, we determined the
Agency did not comply with its policies and procedures for 26 child beneficiaries who
were managing their own benefit payments.

Of the 26, the Agency confirmed it erroneously placed 16 children—8 OASDI
beneficiaries and 8 SSI recipients—into direct pay status. These children did not meet
the capability determination criteria for managing their own benefit payments. For
example, we identified a 15-year-old child as being her own payee on both her MBR
and in RPS. The selection date (or date the direct payment began) was listed as
May 2008, indicating the child had been receiving direct payment since age 13. Since
SSA staff did not document a capability determination, we forwarded the information to
the Agency and requested clarification. The Agency confirmed the child’s receiving
benefit payments directly was an error and explained it appeared to be the result of a
manual action. In addition, after receiving our referral, SSA appointed the child’s
mother as the payee on October 1, 2010.

Based on our sample, we estimate SSA erroneously placed about 1,720 OASDI and
about 160 SSI child beneficiaries into direct pay status who did not meet the capability
determination criteria for managing their own benefit payments. We estimate these
children received about $31.8 million and $1.5 million in OASDI and SSI benefit
payments, respectively. SSA paid these benefits without any oversight as to whether
the funds were used for the children’s best interest. In these instances, Agency staff
explained that SSA paid the children directly because of employee processing errors.




17
     SSA, POMS, GN 00502.070.
18
     SSA, POMS, GN 00502.070 C.
Page 8 - The Commissioner


For 10 of the 26 instances of noncompliance in our sample, Agency staff explained they
presumed the children were capable of receiving direct payment since certain allowable
conditions existed. However, staff did not record capability determinations on the
children’s records, as required by policy.

For example, information on a 17-year-old child’s record in RPS indicated she was
placed in direct pay in March 2009 at age 16. We requested additional data about this
case. The Agency responded the child had been considered capable of receiving direct
payment because she was married. However, SSA confirmed that it did not document
the capability determination on the child’s record, as required by policy.

CONCLUSION AND RECOMMENDATIONS
SSA did not always appoint representative payees for minor children in accordance with
its policies. We estimate the Agency did not appoint representative payees, as
required, for approximately 3,200 children under age 18 who had received about
$66.2 million in benefit payments. Since these children did not have representative
payees, the Agency was not able to monitor how the benefits were spent. We found the
majority of the problems were caused by employee processing errors.

Therefore, we recommend SSA:

1. Remind employees to follow policies and procedures when issuing direct payments
   to children under age 18. Specifically, (1) appoint representative payees for all
   children under age 15 and (2) document capability determinations for children ages
   15 through 17 who are deemed capable of receiving direct payment.

2. Follow up on the 14 children under age 15 whose benefit payments were suspended
   pending appointment of payees and determine whether any of the cases should be
   referred to our Office of Investigations for further action.

3. Identify pending representative payee applications for children under age 15 before
   completing RPS database cleanups. If follow-up actions are required, refer the
   identified applications for additional review.

4. Determine whether there is a cost-effective method for identifying undocumented
   representative payees and requiring such payees to account for the use of benefits
   they receive on the behalf of child beneficiaries.

5. Determine whether it is cost-effective to periodically review a list of children under
   age 18 in direct pay status as a monitoring control. At a minimum, we believe all
   children under age 15 without a representative payee should be identified on a
   periodic basis so that payees can be appointed.
Page 9 - The Commissioner


AGENCY COMMENTS
SSA agreed with Recommendations 1 through 4. The Agency partially agreed with
Recommendation 5. In response to Recommendation 5, SSA agreed to evaluate the
feasibility of periodically identifying all children under age 15 without a representative
payee so that payees can be appointed. However, the Agency stated action to address
Recommendation 1 would ensure staff process and monitor children under age 18 in
accordance with policy. Hence, SSA believes it does not need additional monitoring for
children between ages 15 and 18. The full text of the Agency’s comments is included in
Appendix D.




                                         Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
MBR      Master Beneficiary Record
OASDI    Old-Age, Survivors and Disability Insurance
OIG      Office of the Inspector General
POMS     Program Operations Manual System
RPS      Representative Payee System
SSA      Social Security Administration
SSI      Supplemental Security Income
SSN      Social Security Number
SSR      Supplemental Security Record
U.S.C.   United States Code
                                                                                     Appendix B

Scope and Methodology
To accomplish our objective, we:

     Reviewed applicable laws and regulations.

     Reviewed Social Security Administration (SSA) policies and procedures related to
      minor children receiving benefits.

     Reviewed prior Office of the Inspector General reports.

     Obtained and analyzed two electronic data extracts from SSA’s Master Beneficiary
      (MBR) and Supplemental Security Records (SSR).

       One data extract consisted of minor children under age 15 who were receiving
        direct payment of Old-Age, Survivors and Disability Insurance (OASDI) or
        Supplemental Security Income (SSI) benefit payments, but did not have Agency-
        appointed representative payees managing those payments. We identified
        1,351 minor children. We used data from all 20 segments of the MBR and SSR1
        to identify these beneficiaries. 2 We forwarded information concerning the
        1,351 minor child beneficiaries to the Agency for review and corrective action in
        April 2010. We requested the Agency analyze the cases and provide information
        as to why the children did not have representative payees. We also requested
        that SSA appoint representative payees for the children.

       The other data extract consisted of children ages 15 through 17 who were
        receiving direct payment of OASDI or SSI benefits but did not have Agency-
        appointed representative payees managing those payments. We identified
        567 children on 1 segment of the MBR and SSR. We estimate there are about
        11,340 children 3 age 15 through 17 receiving OASDI or SSI benefits without a
        payee in all 20 segments of the MBR and SSR. Of the 567, we reviewed the
        records for a sample of 81 children (see Appendix C for our sampling
        methodology). We reviewed their records to assess whether the Agency
        complied with its policies and procedures regarding issuing payments directly to
        children ages 15 through 17.



1
 The MBR and SSR are divided into 20 segments with each segment representing 5 percent of OASDI
and SSI benefit records.
2
  We use the term “beneficiary” generically in this report to refer to both OASDI beneficiaries and SSI
recipients.
3
    We multiplied our population of 567 from 1 segment by 20 to estimate our results to the population.


                                                     B-1
The principle entity audited was the Office of the Deputy Commissioner for Operations.
We performed our review in Baltimore, Maryland, from April through October 2010. We
conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objective. We tested the data obtained for our audit
and determined it was sufficiently reliable to meet our objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objective.




                                          B-2
                                                                                      Appendix C

Sampling Methodology
We obtained and analyzed two electronic data extracts using information from the
Social Security Administration’s (SSA) Master Beneficiary (MBR) and Supplemental
Security Records (SSR). One extract consisted of minor children under age 15 who
were directly receiving Old-Age, Survivors and Disability Insurance (OASDI) or
Supplemental Security Insurance (SSI) benefits but did not have Agency-appointed
representative payees managing the payments. We used data from all 20 segments of
the Agency’s MBR and SSR 1 and identified 1,351 child beneficiaries under age 15. 2
The other extract consisted of child beneficiaries ages 15 through 17 who were also
receiving OASDI or SSI benefits but did not have representative payees. We used data
from 1 segment of the MBR and SSR and identified 567 children. We estimate SSA
paid 11,340 3 beneficiaries ages 15 through 17 directly on all 20 segments of the MBR
and SSR.

For the population of minor children under age 15, we requested the Agency analyze
the cases, provide information as to why the children did not have representative
payees, and appoint representative payees for the children, as appropriate. As of
December 2010, the Agency indicated it appointed representative payees for
1,333 (99 percent) of the 1,351 children. In addition, for 16 children, SSA suspended
benefit payments pending appointment of payees to manage the children’s finances. In
most of these cases, the Agency had been unsuccessful in its attempts to contact or
locate the children’s parents. Lastly, two children were no longer eligible for benefits.
We estimated the 1,351 minor children under age 15 had received approximately
$32.9 million in benefit payments.




1
 The MBR and SSR are divided into 20 segments with each segment representing 5 percent of all
OASDI and SSI benefit records.
2
  We use the term “beneficiary” generically in this report to refer to both OASDI beneficiaries and SSI
recipients.
3
    We multiplied our population of 567 for one segment by 20 to estimate our results to the population.

                                                     C-1
                    Table C-1: Amount of Benefits Received by Children
                  Under 15 the Agency Erroneously Placed into Direct Pay
                 Population                                         1,351
                 Sample Size                                           50
                 Amount of Benefits Received by Children
                 Under 15 Erroneously Placed into Direct Pay   $1,218,759
                 Projection of Benefits Received
                        Point Estimate                        $32,930,868
                        Lower Limit                           $25,312,297
                        Upper Limit                           $40,549,439
                  Note: All projections are at the 90-percent confidence level

From the population of children between ages 15 through 17, we identified two sampling
frames: (1) OASDI beneficiaries and (2) SSI recipients. We identified 536 OASDI
beneficiaries and 31 SSI recipients. We randomly selected 50 OASDI beneficiaries and
reviewed information recorded in SSA’s information systems for the beneficiaries. In
addition, we reviewed information recorded in the information systems for each of the
31 SSI recipients. In total, we examined data for 81 children between ages 15 and 17.

                                   Table C-2: Sample Population
                                   OASDI Beneficiaries  SSI Recipients           Totals
           Population Size
           (1 Segment)                       536                    31            567
           Sample Size                        50                    31             81

For the 81 children, we reviewed information recorded in SSA’s Representative Payee
System (RPS) to determine whether the Agency documented its capability
determination on the child’s RPS record. We also reviewed information in SSA’s
payment records to determine whether the Agency had documented its capability
determination elsewhere on the child’s record. Specifically, we reviewed information
from the children’s MBRs and SSRs, and the Modernized Supplemental Security
Income Claims System 4 for relevant remarks.

Based on our review of the 81 children, the Agency confirmed it erroneously placed
16 children into direct pay. Eight of the children were OASDI beneficiaries, and the
remaining eight were SSI recipients. Estimating our results to all 20 segments of the
MBR and SSR, the Agency erroneously placed approximately 1,720 OASDI
beneficiaries into direct pay who received about $31.8 million in benefit payments. In
addition, we estimated the Agency erroneously placed approximately 160 SSI recipients
into direct pay who received about $1.5 million in benefit payments.




4
    SSA uses this system for SSI recipients only.


                                                    C-2
       Table C-3: Number of Children (Ages 15 Through 17) SSA Erroneously
                                Placed into Direct Pay
                                                   OASDI         SSI
                                                Beneficiaries Recipients5 Total
Sample Size                                           50          31       81
Number of Children Erroneously Placed into
Direct Pay                                            8            8       16
Projection of Children Erroneously Placed into Direct Pay
       Point Estimate (1 Segment of the MBR
       and SSR)                                       86           8
       Lower Limit                                    46          --
       Upper Limit                                   142          --
       Total Estimate (20 Segments of the
       MBR and SSR)                                 1,720        160      1,880
Note: All projections are at the 90-percent confidence level.


  Table C-4: Amount of Benefits Received by Children (Ages 15 Through 17) the
                      Agency Erroneously Placed into Direct Pay
                                               OASDI          SSI
                                            Beneficiaries Recipients6  Total
Sample Size                                      50           31        81
Amount of Benefits Received by Children
Erroneously Placed into Direct Pay            $148,259      $75,140
Projection of Benefits Received
       Point Estimate (1 Segment of the
       MBR and SSR)                          $1,589,336        --
       Lower Limit                            $461,143         --
       Upper Limit                           $2,717,530        --
       Total Estimate (20 Segments of the
       MBR and SSR)                         $31,786,720 $1,502,800 $33,289,520
Note: All projections are at the 90-percent confidence level.




5
  We reviewed all 31 cases from one segment of the SSR. Therefore, there was no projection of our
results to the segment. We multiplied our findings by 20 to estimate our results to the population.
6
    Id.


                                                  C-3
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY


MEMORANDUM


Date:      April 15, 2011                                                            Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Minor Children Receiving Benefits
           Without a Representative Payee" (A-13-10-10104)--INFORMATION

           Thank you for the opportunity to review the subject report. Please see our attached comments.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Chris Molander at extension 57401.

           Attachment




                                                           D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “MINOR CHILDREN RECEIVING BENEFITS WITHOUT A
REPRESENTATIVE PAYEE” A-13-10-10104

We offer the following responses to your recommendations.

Recommendation 1

Remind employees to follow policies and procedures when issuing direct payments to children
under age 18. Specifically, (1) appoint representative payees for all children under age 15 and
(2) document capability determinations for children ages 15 through 17 who are deemed capable
of receiving direct payment.

Response

We agree. We will publish an Administrative Message (AM) that instructs staff to follow
policies.

Recommendation 2

Follow-up on the 14 children under age 15 whose benefit payments were suspended pending
appointment of payees and determine whether any of the cases should be referred to our Office
of Investigations for further action.

Response

We agree. We are reviewing these cases. We will refer them to the Office of Investigations, if
appropriate.

Recommendation 3

Identify pending representative payee applications for children under age 15 before completing
Representative Payee System database cleanups. If follow-up actions are required, refer the
identified applications for additional review.

Response

We agree. We will query the Representative Payee System to identify potential pending
representative payee applications prior to completing scheduled database clean-ups.

Recommendation 4

Determine whether there is a cost-effective method for identifying undocumented representative
payees and requiring such payees to account for the use of benefits they receive on the behalf of
child beneficiaries.




                                               D-2
Response

We agree. We will evaluate options to determine if there is a cost-effective way to identify
undocumented representative payees.

Recommendation 5

Determine whether it is cost-effective to periodically review a list of children under age 18 in
direct pay status as a monitoring control. At a minimum, we believe all children under age
15 without a representative payee should be identified on a periodic basis so that payees can be
appointed.

Response

We do not agree with the first part of your recommendation to periodically review all cases for
children under age 18 who are in direct pay status. We expect the reminder noted in
recommendation number one will ensure staff are processing and monitoring these cases in
accordance with our policy.

We agree with the second part of your recommendation and will evaluate the feasibility of
periodically identifying all children under age 15 who do not have a representative payee.




                                               D-3
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E.Todd, Director, Evaluation Division

   Randy Townsley, Audit Manager

Acknowledgments

In addition to those named above:

   Nicole Gordon, Auditor-in-Charge

   Gregory Trenchard, Auditor

   Upeksha Peramune, Auditor

   Michael Atherton, IT Specialist

   Alla Resman, IT Specialist

   Brennan Kraje, Statistician

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-13-10-10104.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
